TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 The Redesign of the Learning and Education
                   Activity Involved Unnecessary Delays,
                   Additional Costs, and Delayed Savings



                                      September 27, 2006

                              Reference Number: 2006-10-173




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 27, 2006


 MEMORANDUM FOR CHIEF HUMAN CAPITAL OFFICER
                CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Redesign of the Learning and Education
                             Activity Involved Unnecessary Delays, Additional Costs, and Delayed
                             Savings (Audit # 200510027)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) decision to
 remove the Learning and Education activity from the Competitive Sourcing Program. The
 overall objective of this review was to determine whether the decision was appropriate. This
 audit was conducted as part of the Treasury Inspector General for Tax Administration’s
 Fiscal Year 2006 Annual Audit Plan.

 Impact on the Taxpayer
 Competitive sourcing is the process for determining whether an activity will be performed by a
 public or private source, using the disciplines of competition. It should result in significant
 savings and performance improvements. Converting the Learning and Education activity
 competitive sourcing project to a Business Process Reengineering effort–with competitive
 sourcing disciplines–was not an efficient way to redesign the activity. This decision cost the IRS
 considerable additional time and cost.

 Synopsis
 The IRS’ decision to remove the Learning and Education activity from the Competitive Sourcing
 Program was based on legitimate business decisions. However, the time and resources spent on
 the Learning and Education activity competitive sourcing project could have been reduced if this
 decision had been made sooner and implemented more efficiently. The IRS nominated the
 Learning and Education activity as part of its Fiscal Year 2004 Competitive Sourcing Program.
                           The Redesign of the Learning and Education
                     Activity Involved Unnecessary Delays, Additional Costs,
                                       and Delayed Savings


After nominating an activity, the IRS conducts a Business Case Analysis, which is intended to
assess whether there is an opportunity to improve the efficiency of the activity by subjecting it to
the competitive sourcing process. In February 2004, the Strategy and Resource Committee, the
key decision maker for competitive sourcing in the IRS, agreed with the Business Case Analysis
recommendation to compete the Learning and Education activity. As a result, in June 2004, the
Office of Competitive Sourcing began preliminary planning for a standard competition of the
Learning and Education activity. However, in April 2005, the Strategy and Resource Committee
voted to suspend the competitive sourcing project and conduct a “hybrid” study, which can be
described as an internal Business Process Reengineering solution with competitive sourcing
disciplines and expectations. The final redesign using the hybrid approach was approved in
March 2006.
This decision resulted in considerable additional time and cost for the IRS and may not have
saved any time over a competitive sourcing project. The hybrid design did not achieve its goal
of a 40 percent reduction in costs. In addition, the IRS does not have assurance that its redesign
of the Learning and Education activity is more efficient than options that could be provided by
commercial vendors.
We identified opportunities for reduced costs and time. For example, the IRS’ concerns with
using the competitive sourcing process should have been known and considered at the time the
decision was made to nominate the Learning and Education activity for competitive sourcing, not
25 months later. Also, during the 36 months the IRS spent to plan and redesign the Learning and
Education organization, there were inefficiencies and nonproductive time and resources spent
because some of the competitive sourcing disciplines used in the hybrid approach were
unnecessary. We could not quantify how much of the cost expended on the redesign could have
been avoided because IRS cost information did not include details sufficient for us to evaluate
and measure those costs. Another impact of the delayed redesign was a corresponding delay in
the cost savings and other anticipated benefits. The IRS estimated the redesign would save the
IRS approximately $30 million annually.
Another questionable factor of the Strategy and Resource Committee’s decision to adopt the
hybrid approach was inclusion of the option to resume the competitive sourcing process if the
redesign of the Learning and Education activity did not meet predetermined efficiency goals.
Specifically, the Strategy and Resource Committee established a “mandate” of 40 percent cost
reduction and full implementation of the redesigned activity by December 2006 using the hybrid
approach. However, it was not realistic to believe the IRS could quickly revert to competitive
sourcing for the Learning and Education activity. To do so with the same team would have
given the IRS an unfair advantage over potential bidders because the Business Process
Reengineering team had access to documents for extended time periods. To remedy this
advantage, the IRS would have needed to appoint a completely different team to prepare a
proposal for competition, resulting in additional delays.


                                                                                                     2
                          The Redesign of the Learning and Education
                    Activity Involved Unnecessary Delays, Additional Costs,
                                      and Delayed Savings


Finally, the IRS advised the Office of Management and Budget that the hybrid approach was a
creative alternative to traditional competitive sourcing. However, the savings and efficiencies
created by the competitive sourcing process are a consequence of market competition, not
predetermined goals or mandates. The IRS does not know which option would have resulted in
the best cost and redesign because the IRS eliminated the competition and switched to a different
process in the middle of this effort.

Recommendations
We recommended the Director, Competitive Sourcing, nominate activities for competitive
sourcing only after concluding conditions that are known or can be reasonably expected will not
result in removing the activity from competition at a later date. We also recommended the
Deputy Commissioner for Operations Support establish guidelines for conducting Business
Process Reengineering projects. The guidelines should include steps that should be taken; an
estimate of the number of employees that should be involved; and benchmarks for a timeline,
estimated benefits, and costs. The guidelines should not impose competitive sourcing
disciplines, such as using a firewall and a Requirements Document. Finally, we recommended
the Director, Competitive Sourcing, not promote a Business Process Reengineering process with
competitive sourcing disciplines as an alternative to competitive sourcing. Future competitive
sourcing projects should include competition from commercial vendors.

Response
IRS management agreed with two of our three recommendations. The Director, Office of
Competitive Sourcing, completed the development of a nomination model/tool that included the
recommended guidance for nominating activities for the Competitive Sourcing Program. In
addition, the Office of Competitive Sourcing established a workgroup with personnel from the
Procurement function and the Modernization and Information Technology Services organization,
as well as an industry expert, to define the processes for conducting business process
improvement or reengineering efforts. The workgroup was augmented with subject-matter
experts from the Human Capital Office, office of the Chief Financial Officer, and Office of
Program Evaluation and Risk Analysis.
IRS management disagreed with our recommendation not to promote its Business Process
Reengineering process with competitive sourcing disciplines as an alternative to competitive
sourcing. IRS management responded that the IRS has no plans to eliminate competition and
will leave open the option of using some of the competitive sourcing best practices for Business
Process Reengineering and business process improvement initiatives. Management’s complete
response to the draft report is included in Appendix IV.



                                                                                                   3
                          The Redesign of the Learning and Education
                    Activity Involved Unnecessary Delays, Additional Costs,
                                      and Delayed Savings



Office of Audit Comment
IRS management did not include reasons for their disagreement, so we could not determine the
basis for their disagreement. The response states there are no plans to eliminate competition
(which appears to agree with our recommendation), but it does not indicate that future
competitive sourcing initiatives will include competition. Also, it is unclear why management is
addressing future business process improvement initiatives for Recommendation 3, which
specifically addresses future competitive sourcing projects, not business process improvement
initiatives. We continue to believe future competitive sourcing projects should include
competition from commercial vendors, and the IRS should not attempt to promote its hybrid
approach as a substitute for competitions with private industry.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Acting Assistant Inspector for Audit (Headquarters Operations and Exempt
Organizations Programs), at 202-622-8500.




                                                                                               4
                                   The Redesign of the Learning and Education
                             Activity Involved Unnecessary Delays, Additional Costs,
                                               and Delayed Savings




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Learning and Education Activity Was Not a Good Candidate
          for Competitive Sourcing..............................................................................Page 4
                    Recommendation 1:........................................................Page 6

          The Conversion From Competitive Sourcing to the Hybrid Approach
          Was Not Efficient .........................................................................................Page 6
                    Recommendation 2:........................................................Page 11

                    Recommendation 3: .................................................................. Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Management’s Response to the Draft Report ......................Page 17
              The Redesign of the Learning and Education
        Activity Involved Unnecessary Delays, Additional Costs,
                          and Delayed Savings




                   Abbreviations

FTE            Full-Time Equivalent
IRS            Internal Revenue Service
OMB            Office of Management and Budget
OPERA          Office of Program Evaluation and Risk Analysis
                               The Redesign of the Learning and Education
                         Activity Involved Unnecessary Delays, Additional Costs,
                                           and Delayed Savings




                                              Background

Competitive sourcing is the process for determining whether a commercial activity1 will be
performed by a public or private source. It is one of five Federal Government-wide initiatives
outlined in the President’s Management Agenda for improving the management and performance
of the Federal Government. Announced in the summer of 2001, the President’s Management
Agenda states that nearly one-half of all Federal Government employees perform tasks that are
readily available in the private sector. The intent of the competitive sourcing initiative is to open
the Federal Government to the disciplines of competition. The initiative is expected to
consistently generate significant savings and performance improvements.
Office of Management and Budget (OMB) Circular No. A-76, Performance of Commercial
Activities,2 establishes Federal Government policy for the competition of commercial activities.
The policy requires classification of all activities performed by Federal Government personnel as
either commercial or inherently Governmental.3 Agencies are then required to use a streamlined
or standard competition to determine if Federal Government personnel should perform a
commercial activity. The Internal Revenue Service (IRS) established an Office of Competitive
Sourcing in September 2001.
The IRS classified the Learning and Education activity as a commercial activity and nominated it
as a potential candidate for its Fiscal Year 2004 Competitive Sourcing Program. The Learning
and Education activity includes components from the Human Capital Office, the Office of
Agency-Wide Shared Services, and each of the supported business units.
Beginning in June 2003, the IRS conducted a Business Case Analysis to determine whether
competing the Learning and Education activity was likely to yield benefits. The Business Case
Analysis team identified 765 Full-Time Equivalents (FTE)4 that would be in the scope of a
competitive sourcing project. This represented about 27 percent of all Learning and Education
activity costs.
The Business Case Analysis also identified an additional 968 FTEs assigned to the business units
that contributed to the Learning and Education activity in the IRS. For example, training classes
are routinely instructed by business unit personnel. These positions and the other costs incurred


1
  A commercial activity is the process resulting in a product or service that is or could be obtained from a private
sector source.
2
  Issued May 2003.
3
  An inherently Governmental activity is one that is so intimately related to the public interest as to mandate
performance by Federal Government personnel.
4
  A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
fiscal year. For Fiscal Year 2004, 1 FTE was equal to 2,096 staff hours.
                                                                                                              Page 1
                               The Redesign of the Learning and Education
                         Activity Involved Unnecessary Delays, Additional Costs,
                                           and Delayed Savings


by the business units in the delivery of Learning and Education activity services were referred to
as “out-of-scope” costs. The out-of-scope costs of approximately $235 million were
significantly higher than the in-scope costs of $88.6 million and represented 72 percent of the
total cost of the Learning and Education activity in the IRS. Figure 1 shows a comparison of the
in-scope and out-of-scope costs.
                    Figure 1: Comparison of In- and Out-of-Scope Costs

                                                                                       Other, $7.7 (2%)
        Learning and Education                                                         Subject-Matter Experts,
        Contracts, $3.0 (1%)
                                                                                       $14.6 (5%)
                                                                                       Rent, $17.4 (5%)
        Learning and Education
        Staff Travel, $2.4 (1%)                                                        Functional Training
                                                                                        Coordinators, $17.5 (5%)
                                  In-Scope Costs   Out-of-Scope                       Contracts, $26.2 (8%)
                                  $86.6 million
                                  ``               Costs
        Learning and Education
                                  28% of total     $235 million
        Personnel, $83.2 (26%)                     72% of total                       Travel, $58.0 (18%)


                                                                                      Instructors, $93.6 (29%)




Source: Office of Program Evaluation and Risk Analysis (OPERA) presentation to the Strategy and Resource
Committee on March 10, 2006.

The Business Case Analysis team defined the current state of the Learning and Education
activity, evaluated alternatives to the existing organization, and estimated the costs of
maintaining the existing organization or implementing alternative organizations. Alternatives
included making improvements in the existing organization and considering proposals from
outside vendors. In addition, the team identified and analyzed values and risks and evaluated the
impact of values and risks on the costs of the existing and alternative organizations. Figure 2
lists the Learning and Education activity FTEs by business unit for the “in-scope” costs, which
were included in the Business Case Analysis and ultimately subjected to the competitive
sourcing process.




                                                                                                          Page 2
                           The Redesign of the Learning and Education
                     Activity Involved Unnecessary Delays, Additional Costs,
                                       and Delayed Savings


          Figure 2: Learning and Education Activity FTEs by Business Unit
                                for In-Scope Costs
                                                                              Number
                                 Type of Work/Office
                                                                              of FTEs
            Appeals                                                                   12
            Agency-Wide Shared Services                                               84
            Career Management and Learning Centers                                   125
            Communications and Liaison                                                 5
            Human Capital Office                                                     106
            Large and Mid-Size Business Division                                      48
            Modernization and Information Technology Services                         38
            Small Business/Self-Employed Division                                    169
            National Taxpayer Advocate                                                10
            Tax Exempt and Government Entities Division                               24
            Wage and Investment Division                                             144
            Total                                                                    765
           Source: Business Case Analysis.

In April 2005, the IRS decided to suspend the Learning and Education activity competitive
sourcing project and conduct a Business Process Reengineering of the activity instead. It was
anticipated that this would result in a 40 percent cost savings and be implemented by
December 2006. The Human Capital Office had until December 2005 to design a plan to
achieve these goals or the Learning and Education activity would revert to the competitive
sourcing process. In March 2006, the Strategy and Resource Committee approved the Business
Process Reengineering team’s redesign of the Learning and Education organization. The
solution is expected to save the IRS $29.9 million (34 percent) of in-scope costs by the first year
of implementation. Cost savings are projected to increase to $32.9 million by the third year,
when full implementation is expected.
This review was performed at the IRS National Headquarters in Washington, D.C., in the Human
Capital Office and Office of Agency-Wide Shared Services during the period July 2005 through
June 2006. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                             Page 3
                              The Redesign of the Learning and Education
                        Activity Involved Unnecessary Delays, Additional Costs,
                                          and Delayed Savings




                                     Results of Review

The Learning and Education Activity Was Not a Good Candidate for
Competitive Sourcing
In March 2003, the IRS nominated the Learning and Education activity for its Fiscal Year 2004
Competitive Sourcing Program and followed with a Business Case Analysis to determine if the
Learning and Education activity would be a good candidate for competitive sourcing. The
Business Case Analysis resulted in a recommendation to compete the Learning and Education
activity because competition would yield lower costs while providing the same or more value
than the existing organization. In February 2004, the Strategy and Resource Committee, the key
decision maker for competitive sourcing in the IRS, agreed with the recommendation and
decided to conduct a standard competition of the Learning and Education activity.
In April 2005, the IRS suspended the Learning and Education activity competitive sourcing
project. Reasons for suspension included:
    •   The difficulty in adequately defining the Learning and Education activity level of work
        and performance metrics5 that would enable an outside vendor to deliver Learning and
        Education activity services that are critical to the core missions of the business units.
    •   The Learning and Education organization is complex and includes components from
        every business unit.
    •   Business unit leaders became concerned that the project was taking too long, resulting in
        delayed savings and prolonged stress to Learning and Education organization employees
        who were concerned about their jobs.
Although these are legitimate concerns, they were not caused by any new developments that had
occurred since the time the Strategy and Resource Committee had agreed to conduct a standard
competition. These concerns should have been considered before the decision was made to
nominate the activity; or once the activity had been nominated, the concerns should have been
identified during the Business Case Analysis. In addition, some of the concerns are not unique to
the Learning and Education activity but should be expected with any competitive sourcing
project. The time and costs of the competitive sourcing effort could have been avoided if these
concerns had been addressed timely.



5
 Performance metrics are standards for measuring performance, such as the percentage of students who are satisfied
with the quality of the training.
                                                                                                          Page 4
                              The Redesign of the Learning and Education
                        Activity Involved Unnecessary Delays, Additional Costs,
                                          and Delayed Savings


The IRS did not consider evidence that the Learning and Education activity was
not a good candidate for competitive sourcing
The IRS nominates activities for competitive sourcing from its inventory of commercial
activities. One of the nominating criteria is that competition of the activity will not negatively
affect the mission of the IRS. However, the IRS had previously identified training as a vital
component of its overall strategy because it enables the IRS to carry out its mission and
overarching business priorities. Based on this, the suitability of the Learning and Education
activity as a viable candidate for the Competitive Sourcing Program was questionable from the
start. Indeed, business unit leaders later expressed concerns about adequately defining the
Learning and Education activity level of work and performance metrics to enable an outside
vendor to deliver the Learning and Education activity services that are so important to the IRS
mission. Nevertheless, in March 2003, the IRS nominated the Learning and Education activity
as a candidate for competitive sourcing.
The complexity of the IRS’ Learning and Education organization was cited as one of the reasons
to discontinue competition. However, this condition existed at the time the Strategy and
Resource Committee approved the decision to compete the activity. When accepting the
Business Case Analysis recommendation to proceed with competing the Learning and Education
activity, the Strategy and Resource Committee acknowledged the necessity of establishing an
oversight group to ensure the input from and concerns of the various business units were
addressed. However, at that time, the Strategy and Resource Committee decided to proceed with
competing this activity despite the complexity of the organization. The Strategy and Resource
Committee recognized that the business units make significant contributions, such as instructors,
subject-matter experts, and training coordinators, to the delivery of the Learning and Education
activity services. As a result, an Executive Oversight Committee was formed to provide
high-level business unit oversight of the development of the Performance Work Statement6 to
ensure it fully supported critical business unit requirements.

Concerns about the length of time and impact on employees were not unique to
the Learning and Education activity competitive sourcing project
Competitive sourcing projects may take a long time because of the requirement to formally
announce a competition and evaluate bids. Certain factors can affect the length of a project, such
as its complexity and the number of vendor proposals that will need to be evaluated. As part of
the Learning and Education Business Case Analysis, the IRS conducted a market survey to
identify sources that possessed the expertise, capabilities, and experience necessary to meet the
IRS requirements for providing Learning and Education activity services. The IRS received
105 official responses from vendors; it determined 28 vendors appeared to have the capacity to


6
 The goal of the Performance Work Statement team is to write the part of the formal competitive sourcing
solicitation that identifies an agency’s requirements.
                                                                                                           Page 5
                                The Redesign of the Learning and Education
                          Activity Involved Unnecessary Delays, Additional Costs,
                                            and Delayed Savings


perform the mission and had submitted complete responses. The decision to compete the
Learning and Education activity was made at the conclusion of the Business Case Analysis.
Revised OMB Circular No. A-76 states that a standard competition shall not exceed 12 months
from public announcement to the finish date unless a time limit waiver is granted. If necessary,
agencies are permitted to request up to an additional 6 months. The IRS had prior experience
with formal competitions that exceeded the 12 months prescribed by the revised OMB Circular
No. A-76. For example, the Area Distribution Center7 project, which was conducted under the
previous version of OMB Circular No. A-76, took approximately 15 months to complete after
the public announcement date. The IRS could reasonably expect that it would take at least
12 months to complete the Learning and Education activity competitive sourcing project after the
public announcement date and could have anticipated it taking longer, given the high level of
vendor interest.
There was also concern that the extended time period for the Learning and Education activity
project would prolong employee stress, which is a natural reaction to changes in an organization.
Suspending the Learning and Education activity competitive sourcing project and pursuing a
Business Process Reengineering solution did not stop changes in the organization. The only way
to have alleviated the stress of Learning and Education organization employees would have been
to return to the status quo. However, the IRS determined this would not be possible because
changes were needed in the Learning and Education activity to improve efficiency.

Recommendation
Recommendation 1: The Director, Competitive Sourcing, should nominate activities for
competitive sourcing only after concluding conditions that are known or can be reasonably
expected will not result in removing the activity from competition at a later date.
           Management’s Response: The IRS agreed with this recommendation. The Office of
           Competitive Sourcing completed development of a nomination model/tool, including this
           guidance, on August 28, 2006.

The Conversion From Competitive Sourcing to the Hybrid Approach
Was Not Efficient
In January 2005, business units’ concerns prompted the Strategy and Resource Committee to ask
the OPERA to conduct a review of the Learning and Education activity competitive sourcing
project. The OPERA developed a decision model that recommends a comparison of the draft
Performance Work Statement requirements to the Business Case Analysis alternatives. With the
OPERA model, a significant change in projected savings, timeline, or costs–along with the IRS’


7
    An Area Distribution Center handles public and IRS requests for published IRS products.
                                                                                              Page 6
                              The Redesign of the Learning and Education
                        Activity Involved Unnecessary Delays, Additional Costs,
                                          and Delayed Savings


commitment to transformational change–would result in a decision not to proceed with a formal
competitive sourcing project and to pursue an internal solution.
The IRS applied this decision model to the Learning and Education activity competitive sourcing
project. The OPERA’s analysis began in January 2005 and resulted in the Strategy and Resource
Committee’s vote in April 2005 to suspend the Learning and Education activity competitive
sourcing project. The OPERA’s analysis showed an implementation date of December 2007 if
the IRS proceeded with the competitive sourcing project. By pursuing an internal Business
Process Reengineering solution, the IRS expected to complete implementation by
December 2006.
The project continued, but the work was no longer subjected to competition with the private
sector. The objective of the Business Process Reengineering effort was to realize a 40 percent
savings by redefining and redesigning the Learning and Education activity. The design phase of
the Learning and Education Business Process Reengineering project was to conclude no later
than December 2005, with implementation of the new design by December 2006. The Human
Capital Office led the Business Process Reengineering effort, and the Office of Competitive
Sourcing provided advice and support. The Human Capital Office adopted an approach that is
described as Business Process Reengineering with competitive sourcing disciplines and
expectations. The Office of Competitive Sourcing describes the disciplines as defining
requirements, performance standards, and metrics and creating a transformational solution
designed to meet the long-term needs of the organization. The IRS considered promoting this
“hybrid” approach to the OMB as an efficient alternative to traditional competitive sourcing
projects. However, if the Business Process Reengineering effort failed to achieve the required
objectives, the Learning and Education activity project was to revert to the competitive sourcing
process.

The IRS spent 3 years planning and redesigning the Learning and Education
organization
In March 2003, the IRS recognized the potential to improve the efficiency of the Learning and
Education organization by nominating the activity for competitive sourcing. The Office of
Competitive Sourcing then conducted a Business Case Analysis, which confirmed the potential
for savings. The IRS began the process of competitive sourcing by starting work on the
Performance Work Statement and the Most Efficient Organization;8 however, it subsequently
migrated to a Business Process Reengineering approach. The final redesign of the Learning and
Education organization was not approved until March 2006, which was approximately 3 years
after the IRS identified the potential for improvements. IRS management began implementing
the redesign in May 2006 and estimates it will take 12 months to 18 months to implement most
of the recommended changes to the organization.

8
  The Most Efficient Organization team assists in the development of the agency’s plan that is submitted in response
to the formal solicitation.
                                                                                                            Page 7
                              The Redesign of the Learning and Education
                        Activity Involved Unnecessary Delays, Additional Costs,
                                          and Delayed Savings


IRS officials from the Office of Competitive Sourcing and the Learning and Education
organization believe the time spent by the Business Case Analysis, Performance Work
Statement, and Most Efficient Organization teams benefited the Business Process Reengineering
solution. However, the IRS could not quantify how much of this effort was beneficial to the
design and implementation of the new organization. In addition, the IRS does not have
benchmark information to measure how this project compares with other Business Process
Reengineering efforts. In contrast, the IRS was able to design and implement an entirely new
business unit structure based upon the IRS Restructuring and Reform Act of 19989 in less time
than it took to redesign the Learning and Education organization. Furthermore, the IRS did not
begin to keep track of the costs to conduct the project until October 2004, which was about
19 months after it began.
We believe the IRS could have accelerated the design and approval of the new Learning and
Education organization if it had used the Business Process Reengineering approach from the
time it recognized the potential for improvement. Because the redesign of the organization is
estimated to save the IRS approximately $30 million annually, any time saved during this
process would have resulted in significant cost savings. However, we could not quantify how
much time the IRS could have saved because the IRS cost information for the various teams
working on the project did not contain details sufficient for us to estimate how much time the
IRS could have saved if it had avoided unnecessary competitive sourcing steps and duplication.
The IRS needs a better process for determining how to reengineer its processes and
organizations. It does not appear reasonable to spend 3 years and other resources–18 team
members, executive oversight, ad hoc team members, business unit contacts, and contractor
support–to redesign an organization. If 3 years is not a reasonable amount of time for a Business
Process Reengineering effort, the IRS wasted significant resources that could have been used for
other priorities. In addition, the IRS will be unable to use this project as a model for future
Business Process Reengineering efforts because it did not capture costs or identify where
duplication and other competitive sourcing specific efforts could have been avoided.

The time and resources spent on portions of the Learning and Education activity
competitive sourcing project were not productive
The redesign of the Learning and Education organization could have been completed and
approved sooner if the IRS had proceeded with Business Process Reengineering at the
conclusion of the Business Case Analysis instead of making the activity a competitive sourcing
project. When planning for a standard competition, the IRS devotes resources to both a
Performance Work Statement team and a Most Efficient Organization team. The goal of the
Performance Work Statement team is to write the part of the formal competitive sourcing


9
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).

                                                                                                             Page 8
                          The Redesign of the Learning and Education
                    Activity Involved Unnecessary Delays, Additional Costs,
                                      and Delayed Savings


solicitation that identifies an agency’s requirements. The Most Efficient Organization team
assists in the development of the agency’s plan that is submitted in response to that formal
solicitation. To ensure fair competition with potential commercial vendors, OMB competitive
sourcing rules require that members of the Performance Work Statement team not be members of
the Most Efficient Organization team. For the Learning and Education activity competitive
sourcing project, the IRS spent approximately $764,000 for the Performance Work Statement
team, plus an additional $830,000 for the Most Efficient Organization team for salaries, benefits,
overhead, and travel. The teams consisted of 18 people. In addition, the IRS spent $337,316 and
$814,251 for contractor support for the Performance Work Statement and Most Efficient
Organization teams, respectively.
A business process reengineering initiative should include defining what is needed from the
organization, how to redesign the processes, and how to implement improvements in the
structure and operations of the organization to achieve results. These goals are similar to those
of the Most Efficient Organization and Performance Work Statement teams. However, unlike in
competitive sourcing projects, there is no requirement to separate the two objectives, nor are
there restrictions on sharing information. If the IRS had initially made the decision to use the
Business Process Reengineering approach, it would not have been necessary to establish
2 separate teams to conduct this work and it is unlikely that the IRS would have assigned
18 people to 2 separate teams. In addition, the Most Efficient Organization and Performance
Work Statement teams coexisted for 9 months (October 2004 – June 2005). The IRS also
committed additional resources to executive oversight, ad hoc team members, and business unit
contacts. Efficiencies could have been gained if the Business Process Reengineering team had
begun their work in June 2004 and the same team worked on both developing the requirements
and crafting the solution. The efficiencies would have resulted in both time and cost savings to
the IRS by reducing:
   •   Resources needed to conduct the work.
   •   Duplication of work.
   •   Time to accomplish the work.
   •   Contractor costs.
Although these inefficiencies existed, we could not quantify the cost impact to the IRS. The IRS
began tracking costs for this project in October 2004. However, the cost information did not
include details sufficient for us to evaluate and measure the cost of duplicative efforts.
Furthermore, the IRS does not have specific criteria for how to conduct Business Process
Reengineering projects, which prevented us from comparing the cost of the Learning and
Education activity competitive sourcing project with the estimated cost for a comparable
Business Process Reengineering project. Because the IRS has begun tracking costs, we are
making no recommendations in this report about this issue.




                                                                                           Page 9
                          The Redesign of the Learning and Education
                    Activity Involved Unnecessary Delays, Additional Costs,
                                      and Delayed Savings


The IRS could not efficiently resume the Learning and Education activity
competitive sourcing project
                                                  From “IRS Headlines…and More” for
To facilitate the design of a new organization,      May 2, 2005: “The Human Capital
the Business Process Reengineering team was        Office will now lead the effort, with the
provided with the Requirements Document that            mandate of realizing at least a
was developed by the Performance Work              40  percent  cost savings implemented
                                                             by December 2006.”
Statement team. The Requirements Document
described the IRS’ specific needs for its
Learning and Education activity and would have been provided to prospective vendors as part of
a standard competition. By having access to the Requirements Document, the Business Process
Reengineering team had an unfair advantage over potential bidders in the event the Business
Process Reengineering project failed and the IRS decided to restart the competition. The IRS
would have been able to remedy this concern if it had appointed a completely different Most
Efficient Organization team. However, the new team would have to restart its analysis of the
organization, which would mean the time that the Business Process Reengineering team spent
developing the solution had been wasted. In addition, the solution itself could not be used.
Furthermore, the team was provided with a specific numeric savings target of 40 percent, which
would not be provided to any prospective vendors.

Some of the competitive sourcing disciplines were unnecessary
The IRS imposed certain competitive sourcing disciplines on the Business Process
Reengineering team because it wanted the option of resuming the competitive sourcing process.
The expectation was that, by using these competitive sourcing disciplines, the Learning and
Education activity competitive sourcing project could quickly resume if the Business Process
Reengineering effort failed. These disciplines included:
   •   Maintaining the firewall between the Performance Work Statement and Most Efficient
       Organization teams. OMB Circular No. A-76 states that, to avoid any appearance of a
       conflict of interest, members of the Performance Work Statement team shall not be
       members of the Most Efficient Organization team. A firewall is maintained between the
       Performance Work Statement team and the Most Efficient Organization team to ensure a
       conflict does not occur. The firewall precludes the same individuals from serving on
       both teams and does not allow the teams to share information directly.
   •   Requiring the Most Efficient Organization team to develop its solution based on a
       Requirements Document. In a formal competition, the Most Efficient Organization team
       develops a plan in response to a solicitation. The Performance Work Statement is part of
       the solicitation. When the decision was made to pursue a Business Process
       Reengineering solution, the Performance Work Statement or Requirements Document
       was provided to the Business Process Reengineering team.


                                                                                        Page 10
                          The Redesign of the Learning and Education
                    Activity Involved Unnecessary Delays, Additional Costs,
                                      and Delayed Savings


It was not realistic to believe the IRS could quickly restart the competitive sourcing project
because of the unfair advantage the Business Process Reengineering team had over potential
bidders. As a result, these competitive sourcing disciplines were unnecessary and made the
reengineering process more difficult. The firewall inhibited the free flow of information among
the most knowledgeable Learning and Education organization personnel for much of the
Business Process Reengineering project. In addition, the Business Process Reengineering team
was unable to readily share the redesign plans with other IRS activities and obtain buy-in from
the business units. We were advised that the firewall requirement was eventually relaxed.
Furthermore, the Requirements Document was written for an actual, formal competition; thus,
many of the sections did not apply and were not needed for the in-house solution.

Eliminating competition is contradictory to the benefits of competitive sourcing
The IRS advised the OMB about using its hybrid approach as a creative alternative to traditional
competitive sourcing. However, the savings and efficiencies created by the competitive sourcing
process are a consequence of market competition that does not exist internally within Federal
Government agencies. The hybrid solution set an artificial savings goal based on the combined
results of Federal Government competitive sourcing studies for a variety of industries. The IRS
does not have assurance that its redesign is more efficient than what commercial vendors may
have proposed because the IRS eliminated the competition.

The redesign of the Learning and Education activity did not meet the stated goals
Although the Business Process Reengineering solution will save the IRS significant resources,
the solution did not achieve the 40 percent savings originally mandated by the Strategy and
Resource Committee. The Strategy and Resource Committee expected that the timeline would
be expedited significantly by suspending the Learning and Education activity competitive
sourcing project and pursuing a Business Process Reengineering solution. However, the
Business Process Reengineering design phase of the project was not completed by
December 2005. In addition, the Human Capital Office began implementing the solution in
May 2006 and estimates that most of the Learning and Education activity will be converted to
the new organization in 12 months to 18 months; however, full implementation is not expected to
be completed until September 2009, which is almost 3 years past the goal. If the IRS had
continued with the competitive sourcing project, it is possible the IRS would have achieved at
least the same savings within the same timeline.

Recommendations
Recommendation 2: The Deputy Commissioner for Operations Support should establish
guidelines for conducting Business Process Reengineering projects. The guidelines should
include steps that should be taken; an estimate of the number of employees that should be
involved; and benchmarks for a timeline, estimated benefits, and costs. The guidelines should

                                                                                        Page 11
                          The Redesign of the Learning and Education
                    Activity Involved Unnecessary Delays, Additional Costs,
                                      and Delayed Savings


not impose competitive sourcing disciplines, such as using a firewall and a Requirements
Document.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       considered the Learning and Education Business Process Reengineering study a pilot and
       acknowledged that guidelines for Business Process Reengineering could be documented.
       As a result, the Office of Competitive Sourcing established a workgroup with the
       Procurement function, the Modernization and Information Technology Services
       organization, and an industry expert under contract to define the processes for conducting
       business process improvement or reengineering efforts. The workgroup began meeting in
       May 2006 and was augmented with subject-matter experts from the Human Capital
       Office, office of the Chief Financial Officer, and OPERA. The IRS expects to complete
       the guidelines by May 2007.
Recommendation 3: The Director, Competitive Sourcing, should not promote its Business
Process Reengineering process with competitive sourcing disciplines as an alternative to
competitive sourcing. Future competitive sourcing projects should include competition from
commercial vendors.
       Management’s Response: The IRS disagreed with this recommendation. The IRS
       stated that there are no plans to eliminate competitions; conversely, the IRS will leave
       open the option of using some of the competitive sourcing best practices for Business
       Process Reengineering and business process improvement initiatives.
       Office of Audit Comment: IRS management did not include reasons for their
       disagreement, so we could not determine the basis for their disagreement. The response
       states there are no plans to eliminate competition (which appears to agree with our
       recommendation), but it does not indicate that future competitive sourcing initiatives will
       include competition. Also, it is unclear why management is addressing future business
       process improvement initiatives for this recommendation. The recommendation
       specifically addresses future competitive sourcing projects, not business process
       improvement initiatives. We continue to believe future competitive sourcing projects
       should include competition from commercial vendors, and the IRS should not attempt to
       promote its hybrid approach as a substitute for competitions with private industry.




                                                                                           Page 12
                             The Redesign of the Learning and Education
                       Activity Involved Unnecessary Delays, Additional Costs,
                                         and Delayed Savings


                                                                                              Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS’ decision to remove the
Learning and Education activity from the competitive sourcing process was appropriate. To
accomplish this objective, we:
I.      Evaluated the reasons for selecting the Learning and Education activity for competitive
        sourcing and subsequently removing it from the competitive sourcing process.
        A. Reviewed the Business Case Analysis used to support the decision to compete the
           Learning and Education activity.
        B. Reviewed documents showing the progress of the Performance Work Statement and
           Most Efficient Organization teams.1
        C. Reviewed minutes and other relevant documents generated by the governance groups
           responsible for making decisions about the Learning and Education activity
           competitive sourcing project.
        D. Reviewed the OPERA study of FTEs2 and time and costs savings that resulted in the
           decision to remove the Learning and Education activity from the competitive
           sourcing process.
        E. Interviewed IRS officials from the Office of Competitive Sourcing, Human Capital
           Office, Procurement function, OPERA, business units, and Office of the Chief
           Financial Officer; members of the Most Efficient Organization team; and
           representatives of governance groups for the Learning and Education activity
           concerning the decisions surrounding the competitive sourcing process.
        F. Requested and reviewed advice from the Treasury Inspector General for Tax
           Administration Office of Chief Counsel on our findings.
II.     Determined whether the goal established for the Business Process Reengineering team3
        was reasonable and was met.



1
  The goal of the Performance Work Statement team is to write the part of the formal competitive sourcing
solicitation that identifies an agency’s requirements. The Most Efficient Organization team assists in the
development of the agency’s plan that is submitted in response to that formal solicitation.
2
  A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
fiscal year. For Fiscal Year 2004, 1 FTE was equal to 2,096 staff hours.
3
  The Business Process Reengineering team was charged with redesigning the Learning and Education organization.
                                                                                                      Page 13
                   The Redesign of the Learning and Education
             Activity Involved Unnecessary Delays, Additional Costs,
                               and Delayed Savings


A. Reviewed the Business Process Reengineering team’s solution.
B. Monitored the progress of the Business Process Reengineering team in achieving its
   objectives by December 2005 and discussed the progress of the team with the team
   leader, Human Capital Office, Office of Competitive Sourcing, business units, and
   representatives of the governance groups.
C. Determined the basis for the 40 percent savings goal and whether it was reasonable
   that the Business Process Reengineering solution would meet the goal without
   negatively affecting the Learning and Education organization’s ability to perform its
   mission.
D. Evaluated the methodology the IRS used in determining the success of the Business
   Process Reengineering solution.
E. Determined the cost of the decision to remove the Learning and Education activity
   from competitive sourcing and pursue a Business Process Reengineering process.




                                                                                 Page 14
                         The Redesign of the Learning and Education
                   Activity Involved Unnecessary Delays, Additional Costs,
                                     and Delayed Savings


                                                                             Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Carl L. Aley, Director
Michael E. McKenney, Director
Joan R. Floyd, Acting Audit Manager
Susan A. Price, Senior Auditor
Richard J. Viscusi, Senior Auditor
Frank I. Maletta, Auditor




                                                                                    Page 15
                         The Redesign of the Learning and Education
                   Activity Involved Unnecessary Delays, Additional Costs,
                                     and Delayed Savings


                                                                  Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Office of Research, Analysis, and Statistics RAS
Director, Competitive Sourcing OS:A:C
Director, Leadership and Education OS:HC:LE
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Chief Human Capital Officer OS:HC




                                                                        Page 16
            The Redesign of the Learning and Education
      Activity Involved Unnecessary Delays, Additional Costs,
                        and Delayed Savings


                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 17
      The Redesign of the Learning and Education
Activity Involved Unnecessary Delays, Additional Costs,
                  and Delayed Savings




                                                     Page 18
      The Redesign of the Learning and Education
Activity Involved Unnecessary Delays, Additional Costs,
                  and Delayed Savings




                                                     Page 19
